HHS/OIG-Audit--"Review of National Heart, Lung, and Blood Institute Contract for Development of an Artificial Lung, (A-15-92-00003)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of National Heart, Lung, and Blood Institute Contract for Development
of an Artificial Lung," (A-15-92-00003)
March 5, 1992
Complete Text of Report is available in PDF format
(70 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of our review of the National, Heart,
Lung, and Blood Institute process for awarding a contract for development of
an artificial lung. Our review was performed in response to concerns of Congressman
Fortney H. Stark. We found no evidence to indicate that the award was made based
upon factors other than an independent evaluation of technical merit, or that
the contractor was pre-selected.